                                                                                 OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Department of State - OIG
               Month Ending Date: 09/30/2011

                                                                  Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau         Recovery Act TAFS         Award Type        US Indicator       Total Obligations     Total Gross         Direct or        Ordering TAFS
No.                                                                                                                         Outlays         Reimbursable
      Department of State - OIG    (19-0530 2009 \            Contracts and         Y - US              $27,070            $27,070             Direct               N/A
                                   2010) State - OIG -       Orders (including
 1                                 Recovery Act               modifications)
      Department of State - OIG    (19-0530 2009 \            Contracts and         Y - US             $137,618           $129,409             Direct               N/A
                                   2010) State - OIG -       Orders (including
 2                                 Recovery Act               modifications)
      Department of State - OIG    (19-0530 2009 \            Contracts and         Y - US              $17,129            $17,129             Direct               N/A
                                   2010) State - OIG -       Orders (including
 3                                 Recovery Act               modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $94,502            $94,502             Direct               N/A
                                   2010) State - OIG -      Orders (including
 4                                 Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US             $118,799            $62,877             Direct               N/A
                                   2010) State - OIG -      Orders (including
 5                                 Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $95,137            $54,949             Direct               N/A
                                   2010) State - OIG -      Orders (including
 6                                 Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US             $164,159           $148,281             Direct               N/A
                                   2010) State - OIG -      Orders (including
 7                                 Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $88,574            $76,737             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $72,249            $46,520             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US             $132,326            $66,799             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $95,137            $49,322             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US             $167,602           $164,528             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US             $495,331           $467,133             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $16,724            $16,724             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $17,601            $17,601             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US                $73                $73               Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $20,536            $20,536             Direct               N/A
                                   2010) State - OIG -      Orders (including
                                   Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and           Y - US              $11,706            $11,706             Direct               N/A
                                   2010) State - OIG -      Orders (including
 8                                 Recovery Act             modifications)

                                                                                 Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           FY 2009 Non-           Total FY 2009      Total FY 2009   FY 2010 Non-Recovery    Total FY 2010      Total FY 2010   FY 2011 Non-Recovery    Total FY 2011   Total FY 2011
No.                                  Recovery Act TAFS         Obligations       Gross Outlays         Act TAFS           Obligations       Gross Outlays         Act TAFS           Obligations    Gross Outlays
      Department of State - OIG    (19-0529 2009) State -             $59,536           $59,536 (19-0529 2010) State -         $105,056           $105,056 (19-0529 2011) State -         $89,233          $89,233
 1                                 OIG                                                          OIG                                                        OIG
 2
 3
 4
 5
 6
 7
 8




                                                                                                                                     State OIG Monthly Report September 2011-CORRECTED.xls Page 1
                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 5) Version 5.0a
     Reporting OIG: Department of State - OIG
Month Ending Date: 9/30/2011


                                                                 Fiscal Year 2009

                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                Recoveries (FY 09):                             Questioned Costs (FY 09):



                       Forfeitures/Seizures (FY 09):                          Unsupported Costs (FY 09):



                                                                         Recommendations for Better Use
                         Estimated Savings (FY 09):
                                                                                      of Funds (FY 09):




                                                                 Fiscal Year 2010
                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                Recoveries (FY 10):                             Questioned Costs (FY 10):



                       Forfeitures/Seizures (FY 10):                          Unsupported Costs (FY 10):



                                                                         Recommendations for Better Use
                         Estimated Savings (FY 10):
                                                                                      of Funds (FY 10):


                                                                 Fiscal Year 2011
                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                                Recoveries (FY 11):                             Questioned Costs (FY 11):



                       Forfeitures/Seizures (FY 11):                          Unsupported Costs (FY 11):



                                                                         Recommendations for Better Use
                         Estimated Savings (FY 11):
                                                                                      of Funds (FY 11):


                                                           Cumulative Since 2/17/2009
                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*


                          Recoveries (cumulative):       $0.00             Questioned Costs (cumulative):     $0.00


                               Forfeitures/Seizures
                                                         $0.00           Unsupported Costs (cumulative):      $0.00
                                      (cumulative):



                                 Estimated Savings                       Recommendations for Better Use
                                                         $0.00                                                $0.00
                                      (cumulative):                              of Funds (cumulative):



* These data include Federal Audits, Inspections, and Reviews only           State OIG Monthly Report September 2011-CORRECTED.xls Page 1
                                                                                                         OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 9/30/2011

                            FTE Working on Recovery
                                                                                                                                                                      Testimonies:
      Fiscal Year              2009            2010                    2011              Cumulative
       Newly Hired FTE
                               0.00               0.00                 0.00                   0.00                                                            Provided (monthly):       0
         (cumulative):

FTE Funded by Recovery
                               0.08               3.52                 2.52                   6.12                                                         Provided (cumulative):       0
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds         0.50               0.65                 0.55                   1.70
          (cumulative):

                                                                                                                                                         Audits / Inspections / Evaluations /
               Complaints                                Whistleblower Reprisal Allegations                              Investigations                                                                   Training / Outreach
                                                                                                                                                                       Reviews
             Monthly Data                                          Monthly Data                                          Monthly Data                               Monthly Data                             Monthly Data

                                                                                                                                                                                                         Training Sessions
              Received:         1                                         Received:            0                  Opened (this month):         1            Initiated (this month):     0                                       0
                                                                                                                                                                                                                Provided:

                                                                                                                 Active (as of the end of                In Process (as of the end
                                                                         Accepted:             0                                               1                                        6              Individuals Trained:     0
                                                                                                                             the month):                           of the month):
                                                                                                                                                                 Completed Final
                                                                                                                                                                                                         Hours of Training
                                                                                                                 Closed without Action:        0                 Published Work         0                                       0
                                                                                                                                                                                                                Provided:
                                                                                                                                                                         Products:
                                                                                                                                                                  Priority Interim
                                                                                                                                                                                                        Outreach Sessions
                                                                                                                  Prosecution Declined:        0                 Published Work         0                                       0
                                                                                                                                                                                                              Conducted:
                                                                                                                                                                         Products:

                                                                                                                Referred for Alternative                       Unpublished Work
                                                                                                                                               0                                        0
                                                                                                                             Resolution:                              Products*:
                                                                                                                            Convictions,
                                                                                                                     Settlements, Pleas,       0                     QCRs Issued:       0
                                                                                                                             Judgments:

   Cumulative Data Since 2/17/2009                       Cumulative Data Since 2/17/2009                       Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009          Cumulative Data Since 2/17/2009
                                                                                                                                                                Completed Final
                                                                                                                                                                                                         Training Sessions
              Received:         4                                         Received:            1                 Closed without Action:        0                Published Work       20                                         2
                                                                                                                                                                                                                Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                 Priority Interim
                                                                         Accepted:             0                  Prosecution Declined:        0                Published Work        0                Individuals Trained:     35
                                                                                                                                                                       Products:

                                                                                                                Referred for Alternative                       Unpublished Work                          Hours of Training
                                                                                                                                               0                                        1                                       55
                                                                                                                             Resolution:                              Products*:                                Provided:
                                                                                                                            Convictions,
                                                                                                                                                                                                        Outreach Sessions
                                                                                                                     Settlements, Pleas,       0                     QCRs Issued:       0                                       5
                                                                                                                                                                                                              Conducted:
                                                                                                                             Judgments:

                                                                                                                      Cumulative Total:        0                Cumulative Total:      21



             *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                           State OIG Monthly Report September 2011-CORRECTED.xls Page 1
                                                   OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 09/30/2011

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Continued review and revision of draft reports of audits conducted by an IPAs on various ARRA-funded projects
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                               OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Issue draft and final reports on remaining Recovery Act audits
        2
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                       State OIG Monthly Report September 2011-CORRECTED.xls Page 1
                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of State - OIG
   Month Ending 09/30/2011

                                                                     TRAINING ACTIVITIES
                                                                                                                                          Hours of
                                                                                    Training                   Length of                  Training
                                                 Target                                             Date of                 Number of                   Cost of
      No.              Type of Training                       Title of Training   Location (City,               Training                 Provided
                                                Audience                                            Training               Participants                 Training
                                                                                      State)                    (hours)                   (length x
                                                                                                                                        participants)
      1                                                                                                                                             0
       2                                                                                                                                            0
       3                                                                                                                                            0
       4                                                                                                                                            0
       5                                                                                                                                            0
       6                                                                                                                                            0
       7                                                                                                                                            0
       8                                                                                                                                            0
       9                                                                                                                                            0
      10                                                                                                                                            0
      11                                                                                                                                            0
      12                                                                                                                                            0
      13                                                                                                                                            0
      14                                                                                                                                            0
      15                                                                                                                                            0
                                                                                                                TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                         Outreach
                    Organization to which                     Description of                         Date of
      No.                                     Represented                         Location (City,
                     Outreach Provided                          Outreach                            Outreach
                                               at Outreach                            State)
                                                 Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10


                                                                                                State OIG Monthly Report September 2011-CORRECTED.xls Page 1
